OFFICE OF INSPECTOR GENERAL

AUDIT OF
USAID/SOUTHERN AFRICA’S
HIV/AIDS TREATMENT
ACTIVITIES


AUDIT REPORT NO. 4-674-11-009-P
JULY 20, 2011




PRETORIA, SOUTH AFRICA
Office of Inspector General


July 20, 2011

MEMORANDUM

TO:                  USAID/Southern Africa Mission Director, Jeff Borns

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/Southern Africa’s HIV/AIDS Treatment Activities
                     (Report Number 4-674-11-009-P)

This memorandum transmits our final report on the subject audit.         We considered
management’s comments on the draft report and have incorporated them here as appropriate.
Management comments have been included in their entirety in Appendix II.

The report includes six recommendations to strengthen the mission’s HIV/AIDS treatment
activities.  Based on management’s comments on the draft report and supporting
documentation provided, we consider that management decisions have been reached on all six
recommendations. Please provide the Office of Audit Performance and Compliance Division
with the necessary documentation to achieve final action on Recommendations 1–6.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 4

     Performance Indicators and Targets Did Not Facilitate Program Management ......... 4

     Data Warehouse Did Not Provide Reliable or Useful Information ............................. 6

     Mission Did Not Complete Required Data Quality Assessments ............................... 7

     Concentration of Key Duties Hindered Program Management ................................. 8

     Mission Did Not Monitor Cost-Sharing Contributions ................................................. 9

Evaluation of Management Comments...................................................................... 11

Appendix I – Scope and Methodology ....................................................................... 13

Appendix II – Management Comments ...................................................................... 15

Appendix III – Additional Tables ................................................................................ 17




  Abbreviations

  The following abbreviations appear in this report:

  ADS             Automated Directives System
  AOTR            agreement officer’s technical representative
  CDC             Centers for Disease Control
  COP             Country Operational Plan
  COTR            contracting officer’s technical representative
  FPD             Foundation for Professional Development
  FY              fiscal year
  GPRA            Government Performance and Results Act
  JSI             John Snow Inc.
  OGAC            Office of the Global AIDS Coordinator
  PEPFAR          President’s Emergency Plan for AIDS Relief
  RHRU            Reproductive Health & HIV Research Unit
SUMMARY OF RESULTS
In 2003, the United States launched the President's Emergency Plan for AIDS Relief
(PEPFAR)1 in response to the global HIV/AIDS pandemic. In 2008, the U.S. Congress
authorized up to $48 billion to continue this effort over the next 5 years.2 Of this amount, $39
billion is for contributions to the Global Fund to Fight AIDS, Tuberculosis and Malaria and for
bilateral HIV/AIDS programs between the United States and host countries such as South
Africa.3 Through these bilateral programs, the United States works in partnership with host
countries. In its HIV/AIDS activities, USAID focuses on increasing the number of persons
receiving antiretroviral therapy and on building sustainable local capacity for HIV/AIDS
treatment.

With 5.7 million of its 48.3 million citizens infected with HIV, South Africa has the world’s largest
population living with HIV/AIDS, as well as the world’s largest treatment program. As of 2009,
approximately 950,000 South Africans were on treatment, but that number represented less
than 50 percent of those needing treatment. In recent years, the South African Government has
supported the majority of treatment costs, including procurement of almost all public-sector
antiretroviral drugs, with PEPFAR providing for less than 10 percent of antiretroviral drug
needs.4 However, in 2009 the United States pledged an additional $120 million in one-time
funding for antiretroviral drugs in response to a direct request from South African President
Jacob Zuma.

USAID/Southern Africa’s HIV/AIDS treatment activities in fiscal year (FY) 2009 were designed
to contribute to the overall U.S. Government goal of treating 675,000 South Africans.5 In
addition, USAID activities supported strengthening the South African health-care system and
promoting the use of strategic information in health management. To achieve these goals,
USAID/Southern Africa entered into agreements with 13 implementing partners. These
implementing partners worked with the South African Government and communities to increase
the number of patients on antiretroviral treatment while helping to develop local treatment
capacity. This audit focused on the four largest agreements, as listed below.

1. Anova—a 5-year (October 1, 2007–September 30, 2012) cooperative agreement with a
ceiling of $106,607,000.

2. Right to Care—a 5-year (October 1, 2007–September 30, 2012) cooperative agreement with
a ceiling of $173,805,000.


1
  The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003, Pub. L. No.
108-25 (codified as amended in scattered sections of 22 U.S.C.).
2
  Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, and
Malaria Reauthorization Act of 2008 (P.L. 110-293).
3
  The fiscal year (FY) 2009 PEPFAR budget for South Africa was $551 million, of which $309 million was
managed by USAID. From PEPFAR’s inception in 2003 through FY 2010, the United States provided
more than $2.4 billion in cumulative funding for use in South Africa.
4
  Information memorandum from the Office of the U.S. Global AIDS Coordinator regarding antiretroviral
drug support in South Africa in fiscal year 2009.
5
  Although USAID/Southern Africa is a regional mission overseeing programs in several countries, this
audit focuses exclusively on activities conducted in the Republic of South Africa.


                                                                                                    1
3. Foundation for Professional Development (FPD)—a 5-year (October 1, 2007–September 30,
2012) cooperative agreement with a ceiling of $136,097,000.

4. Wits Health Consortium/Reproductive Health & HIV Research Unit (RHRU)—a 5-year
(October 1, 2007–September 30, 2012) cooperative agreement with a ceiling of $115,405,000.

In addition to these agreements, the mission entered into a 5-year, $22.9 million contract with
John Snow Inc. to improve data management and use in HIV/AIDS programs in South Africa.
This contract is scheduled to end in July 2013.

The Regional Inspector General/Pretoria conducted this audit at USAID/Southern Africa to
determine whether the mission’s HIV/AIDS treatment activities were achieving their main goals.
Specifically, the audit sought to determine whether those activities were increasing the number
of HIV-infected individuals newly enrolled on antiretroviral treatment and the number of HIV-
infected individuals currently receiving antiretroviral treatment. These two goals have been
identified by the Office of the Global AIDS Coordinator (OGAC) as key steps in reducing the
mortality rate of men and women infected with HIV.

Through site visits to 16 health facilities, the audit determined that USAID/Southern Africa’s
HIV/AIDS treatment activities have increased the number of new patients enrolled on
antiretroviral treatment and of those currently receiving treatment. Specifically, those site visits
verified that 43,550 patients were receiving HIV/AIDS treatment.6 Implementing partners and
USAID staff described how the program had helped improve the health of South Africans. Staff
at clinics visited said that the program was helping change the social stigma associated with
HIV and ensuring that patients adhere to treatment regimens. By aligning program strategy with
the South African Government’s strategy, USAID is helping build local capacity and
sustainability for treatment activities. Finally, patients supported by USAID related how the
program had improved their health and livelihoods.

Despite these positive results, the audit disclosed the following weaknesses:

      Performance indicators and targets did not facilitate program management (page 4).

      Data warehouse did not provide reliable or useful information (page 6).

      Mission did not complete required data quality assessments (page 7).

      Concentration of key duties hindered program management (page 8).

      Mission did not monitor cost-sharing contributions (page 9).

To address these issues, we make six recommendations to the mission:

1. Implement a template of the annual work plan for PEPFAR implementing partners to use to
   report and evaluate program performance effectively (page 6).

2. Conduct an assessment of the effectiveness of the data warehouse (page 7).



6
    Site visits verified approximately 10 percent of currently enrolled HIV/AIDS patients during 2009.


                                                                                                         2
3. Draft and approve a mutually agreeable comanagement plan for the data warehouse with
   the Centers for Disease Control and Prevention (page 7).

4. Identify the data used for reporting externally on Agency performance, and conduct data
   quality assessments on that data (page 8).

5. Implement a plan to divide roles and responsibilities more evenly among the HIV/AIDS
   treatment team members (page 9).

6. Add to the site visit checklist an item to monitor cost-sharing requirements (page 10).

Detailed findings follow. The audit’s scope and methodology are described in Appendix I and
the mission’s comments are included in Appendix II. Our evaluation of the mission’s comments
is included on page 11.




                                                                                             3
AUDIT FINDINGS
Performance Indicators and
Targets Did Not Facilitate Program
Management

Indicators and targets are important tools for assessing performance in USAID’s results-oriented
management philosophy. Indicators, which can be either quantitative or qualitative, are used to
measure actual results of USAID activities, whereas targets indicate expected results. Targets
orient stakeholders to the tasks to be accomplished and motivate individuals involved in a
program to do their best to ensure the targets are met. Once a program is under way, targets
serve as guideposts for judging whether progress is occurring as scheduled and at the levels
originally envisioned. USAID’s Automated Directives System (ADS) 203.3.4.2 states that a
good performance indicator should be objective, useful for management, and attributable to
USAID or U.S. Government efforts, while ADS 203.3.4.5 states that missions should ―set
performance targets that are ambitious, but can realistically be achieved within the stated
timeframe and with the available resources.‖

Despite these requirements, USAID/Southern Africa did not establish clear, consistent, and
ambitious performance targets for the four implementing partners audited. As shown in Table 1,
three out of four agreements contained FY 2009 targets for the two key performance indicators;
however, these targets were often significantly more than the FY 2009 targets that USAID
ultimately adopted in the FY 2008 Country Operational Plan (COP). Furthermore, the mission
did not establish targets for one indicator in the cooperative agreement with the FPD.

    Table 1. FY 2009 Targets in Partner Agreements Differed From Targets in COP

              Antiretroviral                               Target                Percent
                  Drug
                                    Partner                                    Change From
               Treatment
                                                  Agreement           COP       Agreement
                Indicator
              Number of             Anova           38,374            20,000      -48
              currently             RHRU            37,400            43,540       16
              enrolled           Right to Care      45,600            50,000       10
              patients               FPD            60,000            50,000      -17
              Number of             Anova           23,765             8,500      -64
              newly                 RHRU            12,999            12,350       -5
              enrolled           Right to Care      24,852            11,000      -56
              patients               FPD           Not given          25,000       N/A
             Note: The numbers in this table have not been audited.

In addition, the COP targets were not ambitious and thus not useful in assessing performance.
As shown in Table 2, implementing partners exceeded most targets by significant margins. For
example, Right to Care reported enrolling 38,008 individuals on antiretroviral therapy in
FY 2009, well over triple its COP target of 11,000 individuals.




                                                                                              4
           Table 2. Comparison of FY 2009 Targets Versus Partners’ Results

               Antiretroviral                              FY 2009              Percent of
                   Drug
                                    Partner                                      Target
                Treatment                                          Reported
                                                      Target                    Achieved
                 Indicator                                          Result
               Number of            Anova            20,000            47,275      236
               currently            RHRU             43,540            84,155      193
               enrolled          Right to Care       50,000            83,997      168
               patients              FPD             50,000            77,269      155
               Number of            Anova             8,500            18,208      214
               newly                RHRU             12,350            32,658      264
               enrolled          Right to Care       11,000            38,008      346
               patients              FPD             25,000            32,542      130
              Note: The numbers in this table have not been audited.

Two factors explain the wide differences between targets and results: the nature of the annual
planning process and the incongruity between the indicators and the dynamics of the HIV/AIDS
treatment program in South Africa. Regarding the annual planning process, mission officials
stated that setting targets for implementing partners is not a top priority during COP preparation.
Instead, technical teams focus on budgetary allocations to the various U.S. Government
agencies involved in international HIV efforts. These allocations are based on the agencies’
respective areas of expertise and are not tied to any specific agency targets. After a particular
agency’s funding level is determined, the technical teams’ focus shifts to determining funding for
individual partners’ activities. Tellingly, guidance for the FY 2011 COP does not require USAID
to report targets for implementing partners’ activities.

Regarding the incongruity between indicators and program dynamics in South Africa, a U.S.
Embassy Pretoria official who helps oversee the interagency process for preparing the COP
noted that these indicators have limited utility because the South African Government is more
involved in HIV/AIDS treatment activities than are most other PEPFAR host governments, given
South Africa’s relatively greater resources. As a result, most USAID implementing partners
provide services in South African Government facilities, and partners’ reported results
encompass essentially the same patient population reported on by the South African
Government. Under these circumstances, indicator results are driven more by the South
African Government’s scaling-up of treatment services than by partner (and, by extension,
USAID) efforts, a fact that increases the difficulty of setting meaningful targets. Additionally, the
use of data from South African Government facilities means that there is greater room for
variability among implementing partners as to exactly what kind of treatment is provided for a
patient included in their respective indicator results, introducing ambiguity as to what the
indicator is measuring and limiting its usefulness for management in assessing performance.

In its HIV/AIDS program planning, USAID must meet both the requirements imposed by OGAC
and those found in internal policies on performance management. While well-designed
indicators with clear, ambitious, and feasible targets are a powerful tool in motivating partners
and helping to ensure that U.S. Government funds are spent effectively, the benefits must not
be outweighed by the costs of data collection. Without such indicators, however, the full benefit
derived from USAID funding cannot be measured. Until OGAC provides additional guidance
and resources, USAID should develop feasible and cost-effective ways to motivate partners and
assess their performance, such as by measuring achievement against annual work plan


                                                                                                   5
objectives, so that future funds are allocated as effectively as possible. As a result, we make
the following recommendation.

      Recommendation 1. We recommend that USAID/Southern Africa implement a
      standard annual work plan template for President’s Emergency Plan for HIV/AIDS Relief
      treatment partners to effectively report and evaluate program performance.

Data Warehouse Did Not Provide
Reliable or Useful Information

In July 2008, USAID/Southern Africa signed a task order under an indefinite quantity contract
with John Snow Inc. (JSI) to enhance the use of strategic information in the mission’s HIV
programs. Among other things, the task order required JSI to improve the data warehouse by
developing a platform with enhanced analytical capability that would encourage the use of data
in decision making.7 The agreement also stated that ―data quality is a fundamental dimension of
this task order‖ (italics in the original). For its part, the USAID contracting officer’s technical
representative (COTR) was responsible for overseeing JSI’s performance, providing verbal and
written technical directions to the contractor, and inspecting all deliverables and services.

Despite these requirements, the audit found a number of errors in reports generated by the data
warehouse. For example, partner targets displayed in data warehouse reports did not
correspond with the supporting documentation used to populate the data warehouse. As shown
in Appendix III, Tables III-1 and III-2, the FY 2009 targets for Right to Care and RHRU taken
from data warehouse reports did not agree with the FY 2009 targets in the FY 2008 Country
Operational Plan. These discrepancies were caused by several factors. For example, faulty
formulas in the database double counted patient age subgroups, producing incorrect and
inflated indicator target totals. In addition to faulty formulas, subgroup values did not match with
supporting documentation.

Errors in data warehouse reports were not restricted to targets. As shown in Appendix III,
Table III-3, results generated by the data warehouse were not always consistent with those
originally reported by implementing partners.

JSI officials could not explain why these discrepancies occurred. The officials noted that their
work required constant adjustment to the system formulas to accommodate ongoing
requirements imposed by OGAC. In this case, they could not explain why the formulas did not
provide the correct results but believed that this was a result of recent design changes
mandated by the mission during FY 2010 to accommodate new patient age subgroups.
Furthermore, although JSI officials stated that changes in subgroup values could be a result of
target revisions, no documentation was available to support this theory.

The USAID COTR for JSI, a member of the HIV/AIDS treatment team, was aware of systematic
problems with the data warehouse. The COTR stated that the original design of the data
warehouse by JSI’s predecessor was poor and did not have the capability to adjust to changing
OGAC requirements. While the USAID COTR and the activity manager concurrently managed
the JSI contract, they stated that management of the JSI contract was complicated because it is
managed with the U.S. Centers for Disease Control (CDC). While the contract has been


7
    The data warehouse is a database created under a previous USAID agreement.


                                                                                                  6
managed in this fashion, there is no written agreement between USAID and CDC to define
responsibilities.

As a result, as of December 31, 2010, USAID had spent over $4.6 million developing and
maintaining a data warehouse that has not provided consistently reliable or useful information.
For example, the database is not currently a useful platform for decision making. Implementing
partner officials voiced their discontent with the data warehouse, saying it was not designed to
meet their needs. Moreover, partner officials also complained about the unreliability of reports
generated by the data warehouse, which affects the reliability of data reported to Washington
stakeholders. Yet mission officials believe that the data warehouse has indeed enhanced the
monitoring and evaluation of treatment activities in that it drives the behavior and discipline of
implementing partners to manage their programs more effectively.

Given the range of problems with the system and the depth of users’ dissatisfaction, future
improvements appear unlikely without identifying and fixing underlying technical causes of
errors in the database. In addition, USAID and CDC need to clarify their day-to-day
management responsibilities. Consequently, we make the following recommendations.

   Recommendation 2.         We recommend that USAID/Southern Africa conduct an
   assessment of the effectiveness of the data warehouse.

   Recommendation 3. We recommend that USAID/Southern Africa draft and approve a
   mutually agreeable comanagement plan for the data warehouse with the Centers for
   Disease Control and Prevention.

Mission Did Not Complete Required
Data Quality Assessments

ADS 203.3.5.2 states that data reported to Washington for Government Performance and
Results Act (GPRA) reporting purposes or for reporting externally on Agency performance must
have had a data quality assessment at some time within the 3 years before submission. A data
quality assessment determines the strengths and weaknesses of the data and the extent to
which the data can be trusted for making programmatic decisions.

Data from USAID, including that reported by the mission in South Africa, was included in the
indicator Number of people receiving HIV/AIDS treatment in the 15 focus countries reported in
the Department of State-USAID Joint Summary of Performance and Financial Information for
Fiscal Year 2009. In addition, similar data was included in the FY 2009 Foreign Operations
Performance Report. Consequently, data included in those reports should have had a data
quality assessment done in accordance with ADS 203.3.5.2 and GPRA.

Despite this requirement, however, the mission has not completed data quality assessments
within the past 3 years for indicators reported by three of the four implementing partners under
review. For those three implementing partners, data quality assessments were omitted for key
performance indicators in USAID’s HIV/AIDS treatment program, including the indicator
measuring the number of individuals currently receiving antiretroviral treatment. The latest data
quality assessments for these partners were performed in 2005. As a result, potential data
problems, limitations, or weaknesses were not identified.




                                                                                                7
According to mission officials, they were unable to comply with the ADS requirement because
data quality assessments were costly and would diminish the funding available for program
activities. Although the mission has since hired a contractor to perform these tasks,
assessments are done only at the request of activity managers, and data quality assessments
have yet to be performed for three of the four partners under review.

Data reported to the American public must be as complete and accurate as possible. To this
end, USAID policies have been established to help ensure that data are assessed against
standards of validity, integrity, precision, reliability, and timeliness—particularly for data reported
externally. Consequently, auditors believe that because the South African program is USAID’s
largest treatment program in the world, ensuring the quality of data for the program is essential
to maintaining USAID’s credibility in reporting accurate and reliable data. As a result, this audit
makes the following recommendation.

   Recommendation 4. We recommend that USAID/Southern Africa identify the data
   used for reporting externally on Agency performance, and conduct data quality
   assessments on that data.

Concentration of Key Duties
Hindered Program Management

The U.S. Government Accountability Office’s Standards for Internal Control in the Federal
Government requires federal agencies to conduct top-level reviews and ensure adequate
segregation of duties. Additionally, ADS 596, ―Management’s Responsibility for Internal
Control,‖ requires USAID operating units to establish systems of internal control that segregate
key duties and responsibilities among different staff. These duties include authorizing,
processing, recording, and reviewing transactions. Further, ADS 102.3.3.2 requires the team
leader to balance tasks and workload among team members. Despite these requirements, key
duties have been concentrated in the HIV/AIDS treatment team leader, who also serves as the
agreement officer’s technical representative (AOTR) on the treatment program’s four largest
agreements.

As shown in Table 3, the treatment team leader managed 75 percent of the FY 2009 budget as
an AOTR. AOTR responsibilities include regularly monitoring the financial status of the award
to ensure that the funding level is the minimum necessary and monitoring the recipient’s
progress in meeting agreement objectives. In addition, the treatment team leader is responsible
for managing budget planning and allocation for the treatment portfolio. The treatment team
leader also plays a key role in project development, analyzing and reporting on best practices in
antiretroviral treatment that can be applied elsewhere.




                                                                                                     8
       Table 3. Budgeted Treatment Funds Managed by Treatment Team Members
                          While They Were Serving as AOTR

                                                FY 2009 Budgeted
                                                                             Percent of FY 2009
           Treatment Team Staff                 Treatment Funds
                                                                          Budgeted Treatment Funds
                                                Managed as AOTR
                                                                             Managed as AOTR
                                                       ($)
    Treatment Team Leader                          70,542,394                         75
    Employee A                                     16,492,175                         18
    Employee B                                        639,817                          1
    Employee C                                      2,850,239                          3
    Employee D                                        776,724                          1
    Employee E                                      2,489,263                          3
    Employee F                                        124,997                          0
    Total                                          93,915,609                        100
    Note: Percentages were rounded to the nearest whole value. The numbers in this table have not been
    audited.

The treatment team’s managerial structure, as shown in Table 3, resulted from rapid program
expansion without a corresponding increase in staff. While the team leader assigned tasks to
other team members when possible, this management structure led to both actual and potential
problems. First, the sheer number of responsibilities in the dual roles of treatment team leader
and AOTR led to managerial deficiencies described elsewhere in this report, such as not
monitoring cost-sharing contributions. Second, the scope of the treatment team leader’s
responsibilities, when combined with AOTR duties over such a large portion of the mission’s
treatment program, created the opportunity for errors in oversight and incomplete adherence to
Agency regulations due to competing priorities and time constraints.

Good internal control and good management practice dictate that these duties should be
separated to a greater degree than they have been. As a result, this audit makes the following
recommendation.

   Recommendation 5. We recommend that USAID/Southern Africa implement a plan to
   divide roles and responsibilities more evenly among the HIV/AIDS treatment team
   members.

Mission Did Not Monitor
Cost-Sharing Contributions

According to ADS 302.2, an AOTR is required to ensure that USAID exercises prudent
management of its awarded assistance and facilitates the achievement of program objectives by
monitoring recipient performance. Specifically, ADS requires the AOTR to monitor financial
records to ensure that the recipient is making the required cost-sharing contributions.

―Cost-sharing‖ refers to amounts expended by an implementing partner—which are typically in-
kind contributions of goods or services—in furtherance of an agreement’s objectives. As shown
in Table 4, the selected HIV/AIDS treatment program agreements required the implementing
partners to provide $207 million in cost-sharing contributions over 2 years.




                                                                                                         9
                         Table 4. Required Cost-Sharing Contributions
                                              ($)

                       Partner                    FY 2008               FY 2009
               Anova                            42,083,537              66,381,347
               Right to Care                    19,778,000              26,700,300
               RHRU                             13,720,285              24,608,553
               FDP                               5,139,969               8,658,278
               Subtotal                         80,721,791             126,348,478
               Total                                                   207,070,269
              Note: The numbers in this table have not been audited.

Despite the requirement in ADS 303.2 to monitor cost-sharing contributions, the AOTR for these
agreements did not do so because she was not aware of this requirement. The original AOTR
designation letter for these agreements did not list the requirement to monitor cost sharing.
Furthermore, the checklist used by the mission’s health team during routine site visits did not
contain a reminder to monitor cost-sharing contributions. The AOTR added that since the cost-
sharing contributions were primarily drugs provided by the South African Government, she
assumed that partners were meeting their required cost-sharing amounts because without the
drugs the clinics would not be able to operate. While the AOTR and other mission HIV/AIDS
treatment personnel believed that recipients were meeting their obligations, personnel did not
have documentation illustrating how those obligations were met.

Although recipients’ required financial audits do disclose cost-sharing requirements and
contributions, cost-sharing contribution schedules are subject to review only by a recipient’s
independent auditors. These reviews are substantially more limited in scope than an audit and
occur months after the period under review.8 Thus, AOTRs are better placed to monitor such
contributions during the course of a fiscal year. It is clear, however, that without proper
monitoring of cost-sharing contributions, USAID lacks assurance that recipients are fulfilling
their obligations, and program beneficiaries may not be benefitting from required cost-sharing
contributions.

As a result, this audit makes the following recommendation.

    Recommendation 6. We recommend that USAID/Southern Africa add to its site visit
    checklist an item to monitor cost-sharing requirements.




8
 For example, a recent financial audit of one of the above agreements found that the recipient’s senior
management was not adequately monitoring its cost-sharing contributions, underscoring the importance
of ongoing monitoring by USAID officials.



                                                                                                    10
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Southern Africa agreed with all six recommendations in the draft report. On the basis of
the response from the mission, management decisions have been reached on all six
recommendations. Management comments are summarized below, followed by the audit
team’s evaluation of management comments.

Recommendation 1. USAID/Southern Africa agreed with the recommendation to implement a
standard annual work plan template for PEPFAR treatment partners. The mission noted that it
is developing a standard work plan that will be used in a pilot for activities funded under the
FY 2011 COP. In subsequent correspondence, the mission noted it expects to implement the
standard work plan by September 30, 2011. Consequently, we consider that a management
decision has been reached on Recommendation 1.

Recommendation 2. USAID/Southern Africa agreed with the recommendation to conduct an
assessment of the effectiveness of the data warehouse. The mission noted that it will include
this assessment as part of its upcoming evaluation of the project implemented by John Snow
Inc. In subsequent correspondence, the mission noted it expects this evaluation to be
completed by July 1, 2012. Consequently, we consider that a management decision has been
reached on Recommendation 2.

Recommendation 3. USAID/Southern Africa agreed with the recommendation to draft and
approve a mutually agreeable comanagement plan for the data warehouse with CDC. The
mission noted that the plan will be based on the memorandum of understanding with CDC to
monitor the South Africa PEPFAR Partner Performance Assessment (SAPPPA) contract. In
subsequent correspondence, the mission indicated it expects this memorandum to be
completed by September 30, 2011. Consequently, we consider that a management decision
has been reached on Recommendation 3.

Recommendation 4. USAID/Southern Africa agreed with the recommendation to identify the
data used for reporting externally and conduct data quality assessments on that data. In
subsequent correspondence, the mission noted that data quality assessments will be completed
by August 1, 2012. Consequently, we consider that a management decision has been reached
on Recommendation 4.

Recommendation 5. USAID/Southern Africa agreed with the recommendation to implement a
plan to divide roles and responsibilities more evenly and noted it had already reassigned two
projects and recruited two new senior health technical advisors that will be assigned specific
project management roles and responsibilities. In subsequent correspondence, the mission
estimated that these newly recruited individuals would be assigned their specific roles and
responsibilities by January 1, 2012. Consequently, we consider that a management decision
has been reached on Recommendation 5.

Recommendation 6. USAID/Southern Africa agreed with the recommendation to add an item
to monitor cost-sharing requirements to its site visit checklist. In subsequent correspondence,
the mission indicated it will add this item to the checklist by August 1, 2011. In addition, the



                                                                                             11
mission proposed ensuring that cost sharing is reported at quarterly Joint Planning and
Performance Monitoring discussions. We support this proposal, although we consider that a
management decision has been reached on Recommendation 6 based on the inclusion of
monitoring the cost-sharing requirement in the site visit checklist.




                                                                                      12
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards.9 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The objective of this audit was to determine whether USAID/Southern Africa’s HIV/AIDS treatment
program was achieving its main goals. Specifically, the audit sought to determine whether
those activities were increasing the number of HIV-infected individuals newly enrolled on
antiretroviral drug treatment and the number of HIV-infected individuals currently receiving such
treatment. Audit fieldwork was conducted intermittently from July 8, 2010, to March 7, 2011, and
covered FY 2009. In FY 2009, the treatment program had a total budget of about $104 million,
which comprised over $94 million for adult treatment and about $10 million for antiretroviral
drugs.

In planning and performing the audit, the audit team assessed internal controls related to
management review, proper execution of transactions and events, and reviews of performance
measures and indicators. Specifically, we studied and assessed the following:

     PEPFAR Country Operational Plans
     Implementing partners’ agreements
     Implementing partners’ quarterly and annual progress reports
     USAID/South Africa PEPFAR data warehouse and reports
     Performance measures
     Target and actual performance results

We also interviewed key USAID/Southern Africa personnel, implementing partners,
beneficiaries, and South African Government clinic staff. We conducted the audit at
USAID/Southern Africa and at the treatment activity sites of the four major implementing
partners.

As of September 2010, USAID/Southern Africa had agreements with 13 implementing partners
working on treatment activities, with a total treatment budget of almost $104 million in FY 2009.
Of these agreements, the audit focused on the four largest agreements in the treatment
portfolio. These four agreements had a budget of almost $65 million in FY 2009, approximately
62 percent of the total treatment portfolio.




9
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                                                                               13
                                                                                       Appendix I


Methodology
To answer the objective, the Regional Inspector General/Pretoria interviewed officials
representing USAID/Southern Africa, the South African Government, and implementing partners
to gain an understanding of the mission’s HIV/AIDS treatment activities as well as to identify the
key performance indicators used to measure the contribution of those activities to meeting the
main goals of the program.

At the beginning of fieldwork, USAID/Southern Africa specified 5 of its 16 PEPFAR-reported
indicators as key for measuring project success. However, three of these indicators were new
and were not reported on in 2009. Therefore, the audit team focused on verifying the remaining
two indicators during fieldwork: Number of patients currently enrolled on antiretroviral treatment
and Number of patients newly enrolled on antiretroviral treatment. Where possible, auditors
compared target values with actual results for FY 2009.

Auditors performed site visits at 16 treatment clinics in Gauteng Province (4 clinics per partner).
Visits were limited to Gauteng Province because all partners under review had extensive
projects in this area. Auditors classified clinics as small, medium, or large and then
judgmentally selected at least one small, one medium, and one large clinic to visit for each
partner.     At the clinics, auditors interviewed implementing partner and South African
Government personnel, performed a walk-through of the facilities, and verified supporting
documentation for key indicator results reported to USAID/Southern Africa in 2009. For three of
the agreements audited, results reported came from the data warehouse. For one agreement,
the results reported came from the implementing partner. Due to the judgmental selection of
clinics visited, site visit results cannot be projected to the entire universe of clinics in South
Africa.

We also reviewed the following documents: the South Africa 2009 Country Operational Plan,
partners’ agreements and related modifications, multiple sections of USAID’s ADS, and Federal
Acquisition Regulations.

We established two materiality thresholds to determine success. If the number of HIV-infected
individuals newly enrolled on antiretroviral drugs and the number of HIV-infected individuals
currently receiving such drugs did not reach 80 percent of the stated target goal, we stated that
the program had not achieved its goals. If the number of HIV-infected individuals newly enrolled
on antiretrovirals and the number of HIV-infected individuals currently receiving the drugs met
more than 80 percent of the stated target goal, we stated that the program had succeeded.




                                                                                                14
                                                                                  Appendix II

MANAGEMENT COMMENTS
                                                                               June 30, 2011

Memorandum

From: Jeff Borns, Mission Director /s/

To: Regional Inspector General/Pretoria: Christine M Byrne

Subject: Audit of USAID/Southern Africa’s HIV/AIDS treatment activities (Report Number 4-
674-11-XXX-P)


This memo transmits USAID/Southern Africa’s written comments on the recommendations
made under the subject audit.

   Recommendation 1. We recommend that USAID/Southern Africa implement a standard
   annual work plan template for President’s Emergency Plan for HIV/AIDS Relief treatment
   partners to effectively report and evaluate program performance.

   We accept this recommendation. A standard work plan for treatment partners is now under
   development. This work plan will be piloted for activities funded under the FY 2011 country
   operational plan (COP). We intend to collaborate and consult with CDC in developing this
   work plan, and will attempt to standardize across agencies.

   Recommendation 2. We recommend that USAID/Southern Africa conduct an assessment
   of the effectiveness of the data warehouse.

   We accept this recommendation. An assessment of the data warehouse will be included as
   part of the upcoming evaluation of the project implemented by John Snow Inc., Expanded
   Strategic Information (ESI), where the data warehouse is housed.

   Recommendation 3. We recommend that USAID/Southern Africa draft and approve a
   mutually agreeable co management plan for the data warehouse with the Center for
   Disease Control and Prevention.

   We accept this recommendation for management of the existing data warehouse. This co
   management plan will be based on the Memorandum of Understanding with CDC to monitor
   the South Africa PEPFAR Partner Performance Assessment (SAPPPA) contract.

   Recommendation 4. We recommend that USAID/Southern Africa identify the data used for
   reporting externally on Agency performance, and conduct data quality assessments on that
   data.

   We accept this recommendation and are already moving forward with plans to conduct data
   quality assessments of all prime partners. This will be done through the South Africa
   PEPFAR Partner Performance Assessment (SAPPPA) process, where the current data
   assessment areas are being enhanced to assure that the assessment meets the


                                                                                            15
                                                                                          Appendix II

   requirements of ADS 203.3.5.2.The tool will specifically verify that data are of reasonable
   quality, based on the five data quality standards provided in the ADS.

   Recommendation 5. We recommend that USAID/Southern Africa implement a plan to
   divide roles and responsibilities more evenly among the HIV/AIDS treatment team members.

   We accept the recommendation. We are in the process of dividing roles and responsibilities
   more evenly, and have already reassigned two projects. Unfortunately, USDH vacancies
   may slow down the implementation of this recommendation. The positions of Deputy
   Director, and the Medical Officer, will both be vacant in August. Both have been advertised
   but no appropriate candidates have been identified. However two new senior technical
   advisors, an FSN 12 treatment advisor and a senior USPSC care advisor have been
   recruited and will join the Health Office within the next two months. They will soon be
   trained as A/COTRs and and assigned specific project management roles and
   responsibilities.

   Recommendation 6. We recommend that USAID/Southern Africa add to its site visit
   checklist an item to monitor cost-sharing requirements.

   We accept this recommendation and will add this item to the checklist. Nonetheless we
   think it will be difficult to monitor cost sharing effectively during site visits. Thus, in addition
   to amending the checklist to add this item, we propose to ensure that cost sharing is
   reported at quarterly Joint Planning and Performance Monitoring discussions, and will be
   included in project officer (COTR/AOTR) files.

Finally, I would like to thank you and your staff for the collaborative way in which this audit was
conducted, and the useful nature of the recommendations.




                                                                                                    16
                                                                                            Appendix III


                  Tables III-1 and III-2. FY 2009 Targets:
         Data Warehouse Records Versus Country Operational Plan
                                (Unaudited)

  Right to Care Targets - Number of individuals receiving antiretroviral therapy
  at the end of the reporting period (current clients) (by ages 0-5, 0-14, and 15+)
  for 2009 (Oct. 2008 – Sept. 2009)

                              Per Data                 Per Partner’s
      Age Groups                                                               Difference
                             Warehouse                Approved COP

      0 - 14 Years               3,500                    1,815                  1,685
        < 5 years                8,000                     750                   7,250
      5 - 14 Years          No data given             No data given               N/A
       15 Years +                46,500                  48,185                 -1,685
          Total                  58,000*                 50,000                  8,000

  RHRU Targets - Number of individuals receiving antiretroviral therapy at the
  end of the reporting period (current clients) (by ages 0-5, 0-14, and 15+) for
  2009 (Oct 2008 - Sept 2009)

                              Per Data                 Per Partner’s
      Age Groups                                                               Difference
                             Warehouse                Approved COP

      0 - 14 Years               6,543                    5,163                  1,380
        < 5 years                2,582                    2,582                    0
      5 - 14 Years          No data given             No data given               N/A
       15 Years +                36,997                  38,377                 - 1,380
                                         *
          Total                  46,122                  43,540                  2,582

*Note that the data warehouse totals are incorrect, as explained on page 6.

                           Table III-3. FY 2009 Results:
                     Data Warehouse Versus Partner Records
                                    (Unaudited)

    Antiretroviral                              FY 2009 Results
        Drug                                                                    Difference
                       Partner                            Partner’s Reported
     Treatment                       Data Warehouse
                                                                Result
      Indicator
      Number of         Anova                47,275              47,275               0
       currently        RHRU                 83,797              84,155            -358
       enrolled      Right to Care           83,997              83,997               0
       patients          FPD                 79,114              77,269           1,845




                                                                                                     17
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
